Report No. D-2011-074           June 16, 2011




   U.S. Army Corps of Engineers-Civil Works,
                Omaha District
   Generally Met Recovery Act Requirements
Additional Information and Copies
The To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USACE                         U.S. Army Corps of Engineers
                               INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 





                                                                             June 16, 20 II


MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS
                 OF ENGINEERS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, U.S. ARMY CORPS OF ENGINEERS ,
                 OMAHA DISTRICT

SUBJECT: 	U.S. Army Corps of Engineers- Civ il Works, Omaha District, Generally Met
          Recovery Act Requirements (RepOlt No. 0-2011-074)

We are providing this report for your information and use. U.S. Army Corps of
Engineers, C ivil Works, Omaha District (USACE Omaha), contracting officials genera ll y
met Recovery Act requirements for the five projects, valued at $10.8 million, we
reviewed. However, they did not fully meet initial project execution requirements of the
Recovery Act. As a result, contractors might not have been informed of or required to
adhere to the Recovery Act requirements, and potential bidders might not have been
made aware of the proposed projects funded by the Recovery Act.

We considered management comments on a draft of thi s report when preparing the final
report. The comments from the Commander, USACE Omaha, conform ed to the
requirements of DoD Directive 7650.3. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 60 1-5868 (OSN 329-5868).



                                            fJ~~. ftJ~
                                             Patricia A. Marsh , CPA
                                             Assistant In spector General
                                             Financial Management and Reporting
Report No. D-2011-074 (Project No. D2009-D000FH-0182.006)	                          June 16, 2011 


              Results in Brief: U.S. Army Corps of
              Engineers–Civil Works, Omaha
              District, Generally Met Recovery
              Act Requirements

What We Did
Our objective was to determine whether the               •	 did not include the word “Recovery” in the
U.S. Army Corps of Engineers – Civil Works,                 title field for three of the eight
Omaha District (USACE Omaha), officials                     presolicitations, to identify which projects
implemented Public Law111-5, “American                      were funded by the Recovery Act, because
Recovery and Reinvestment Act of 2009,”                     they were not aware of the Federal
(Recovery Act), February 17, 2009, in                       Acquisition Regulation requirement or
accordance with the requirements in the Act and             guidance from the Recovery Accountability
the Office of Management and Budget (OMB)                   and Transparency Board.
Memorandum M-09-15, “Updated
Implementing Guidance for the American                   As a result, contractors might not have been
Recovery and Reinvestment Act of 2009,”                  informed of or required to adhere to the
April 3, 2009. Specifically, we determined               Recovery Act requirements, and potential
whether USACE Omaha officials properly                   bidders might not have been made aware of the
planned, funded, initially executed, and tracked         proposed projects funded by the Recovery Act.
and reported the five Recovery Act projects
with planned funding of $20.3 million, we                What We Recommend
reviewed.                                                We recommend that the Commander,
                                                         U.S. Army Corps of Engineers, Omaha District,
What We Found                                            ensure that contracting personnel:
USACE Omaha contracting officials generally              •	 modify contract W9127N-08-C-0011 to
met Recovery Act requirements for the four                  include Federal Acquisition Regulation
contracts and four task orders, valued at                   clause 52.212-5, and
$10.8 million, related to the five projects we           •	 include the word “Recovery” in the title for
reviewed. Specifically, USACE Omaha                         all future presolicitations for projects funded
contracting officials properly planned and                  by the Recovery Act in accordance with
funded the projects and had procedures in place             Federal Acquisition Regulation 5.704.
to ensure that contractors properly tracked and
reported required information to achieve the             Management Comments and
goals of the Recovery Act. However, they did
not fully meet initial project execution
                                                         Our Response
requirements of the Recovery Act. Specifically,          The Commander, USACE Omaha, agreed with
USACE Omaha contracting personnel:                       the recommendations and the comments were
                                                         responsive. No additional comments are
•	 did not include a required Federal                    required. Please see the recommendations table
   Acquisition Regulation clause in one of the           on the back of this page.
   Recovery Act contracts because they
   inaccurately completed the Contracting
   Management Control Checklist; and

                                                   i
	
Report No. D-2011-074 (Project No. D2009-D000FH-0182.006)                June 16, 2011


Recommendations Table

Management                  Recommendations                 No Additional Comments
                            Requiring Comment               Required
Commander, U.S. Army                                        1 and 2
Corps of Engineers, Omaha
District




                                         ii
	
Table of Contents

Introduction

      Audit Objective                                                           1

      Background and Guidance on the Recovery Act and USACE Projects            1

      Internal Controls Needed Improvement for the Initial Execution of the

        Recovery Act                                                            5


Finding. USACE Omaha Contracting Officials Generally Met

    Recovery Act Requirements                                                  6


      Contracting Officials Complied With Many of the Recovery Act 

         Requirements                                                           6

      Contracting Officials Did Not Fully Meet Initial Project Execution

         Requirements of the Recovery Act                                       8

      Recommendations, Management Comments, and Our Response                    9


Appendices

      A. 	Scope and Methodology of Audit                                       10 

             Use of Computer-Processed Data                                    10 

             Use of Technical Assistance                                       11 

             Prior Coverage of Recovery Act Projects                           11 

      B. Recovery Act Criteria and Guidance	                                   12 

      C. Contracting Management Control Checklist	                             14 


Management Comments

      U.S. Army Corps of Engineers, Omaha District	                            17 

Introduction
Audit Objective
Our objective was to determine whether the U.S. Army Corps of Engineers – Civil
Works, Omaha District (USACE Omaha), officials implemented Public Law 111-5,
“American Recovery and Reinvestment Act of 2009” (Recovery Act), February 17, 2009,
in accordance with the requirements in the Act and the Office of Management and
Budget (OMB) Memorandum M-09-15 (OMB M-09-15), “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,” April 3, 2009.
Specifically, we determined whether USACE Omaha officials properly planned, funded,
initially executed, and tracked and reported the five Recovery Act projects reviewed for this
audit. See Appendix A for a discussion of our scope and methodology.

Background and Guidance on the Recovery Act and
USACE Projects
In passing the American Recovery and Reinvestment Act of 2009, Congress provided
supplemental appropriations to preserve and create jobs; promote economic recovery;
assist those most affected by the recession; provide investments to increase economic
efficiency through technological advances in science and health; and invest in
transportation, environmental protection, and other infrastructure. The Recovery Act also
provided unprecedented efforts to ensure the responsible distribution of funds for the
Act’s purposes and to provide transparency and accountability of expenditures, so that
the public would know where tax dollars were spent. Further, the Recovery Act stated
that the President and the heads of Federal departments and agencies were to manage and
expend the funds made available in the Act to achieve its purpose, which included
commencing expenditures for activities as quickly as possible, consistent with prudent
management.

Recovery Act Audit Requirements
The Recovery Act and implementing OMB guidance require projects to be reviewed. We
grouped these requirements into the following four phases: (1) planning, (2) funding,
(3) initial execution, and (4) tracking and reporting. The Recovery Act requires that
projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to determine whether funds were distributed in a prompt, fair, and
reasonable manner. Review of the initial execution phase is to determine whether
contracts contained specific Federal Acquisition Regulation (FAR) clauses and that
presolicitations were posted to the proper Web sites. Review of the tracking and
reporting phase is to determine whether the recipients’ use of funds was transparent to the
public and the benefits of the funds were clearly, accurately, and timely reported.




                                             1

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

   •	    buying American construction material,
   •	    protecting contractor whistleblowers,
   •	    publicizing contract actions,
   •	    reporting, and
   •	    giving the Government Accountability Office and agency Inspectors General
         access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. For actions expected to exceed $25,000,
FAR Subpart 5.7, “Publicizing Requirements Under the American Recovery and
Reinvestment Act of 2009,” directs contracting officers to use the Government-wide FBO
Web site (http://www.fbo.gov) to:

    •	   identify the action as funded by the Recovery Act,
    •	   post pre-award notices for orders exceeding $25,000,
    •	   describe supplies in a clear narrative to the general public, and
    •	   provide the rationale for awarding any contracting actions that were not both
         fixed-price and competitive.

FBO is a Federal Government source of Federal procurement opportunities. FBO is a
Web-based portal that allows agency officials to post Federal procurement opportunities
and contractors to search and review those opportunities. Agencies also post contract
award notices on FBO. In addition, to provide transparency, FBO has a separate section
identifying Recovery Act opportunities and awards.

FPDS is a Federal Government source of procurement information. Contracting officers
enter information, including the Treasury Account Symbol, in the FPDS for all Recovery
Act contract actions. The Treasury Account Symbol enables FPDS to provide
transparency by generating and posting a report containing all Recovery Act
contract actions.

OMB Recovery Act Guidance
Criteria for implementing the Recovery Act changed as OMB issued additional guidance.
Also, DoD and the Components issue their own implementation guidance.

                                             2

OMB M-09-15 provides Government-wide guidance for carrying out programs and
activities enacted in the Recovery Act. The guidance states that the President’s
commitment is to ensure that public funds are expended responsibly and in a transparent
manner to further job creation, economic recovery, and other purposes of the Recovery
Act. OMB M-09-15 also requires contracting personnel to include appropriate clauses of
the FAR in their contract actions. See Appendix B for Recovery Act criteria
and guidance.

USACE Civil Works Recovery Act-Funded Appropriations
Under the Recovery Act, Congress appropriated $4.6 billion to USACE Civil Works for
Operation and Maintenance, Construction, Mississippi River and Tributaries, Formerly
Utilized Sites Remedial Action Program, Investigations, and Regulatory Program.
Table 1 provides a breakdown of the amount of Recovery Act funds provided for each
appropriation.
                Table 1. USACE Recovery Act Civil Works Programs
                       Appropriations                           Amount (in millions)
Operation and Maintenance                                                    $2,075
Construction                                                                   2,000
Mississippi River and Tributaries                                                375
Formerly Utilized Sites Remedial Action Program                                  100
Investigations                                                                    25
Regulatory                                                                        25
  Total                                                                      $4,600

USACE Civil Works Mission and Functions
The USACE Civil Works mission is to provide public engineering services in peace and
war to strengthen our Nation’s security, energize the economy, and reduce risks from
disasters. USACE (1) develops and manages U.S. water resources; (2) protects, restores,
and manages the environment; (3) responds to disasters and aids in recovery; and (4)
provides engineering and technical services. This mission is accomplished through
partnerships with other Government agencies and non-Government organizations.
USACE executes its regional programs through 8 divisions and 38 district offices. A
ninth division and three embedded districts support operations in Iraq and Afghanistan.
This report discusses five Recovery Act-funded projects at USACE Omaha.




                                             3

            Figure 1. An Aerial View of the Garrison Dam in North Dakota




            Source: U.S. Army Corps of Engineers, Omaha District

            Source: U.S. Army Corps of Engineers, Omaha District

Selected Projects at USACE Omaha
We nonstatistically selected five USACE Omaha projects for review at the Garrison
Dam, Lake Sakakawea, North Dakota. From those projects, we selected and reviewed
four contracts and four task orders on existing contracts valued at $10.8 million (all eight
hereinafter referred to as contracts) awarded or administered by USACE Omaha.
Specifically, the projects were:

   •	 Control and Elimination of Noxious Weeds. The purpose of the project was to
      secure services to control and eliminate the spread of noxious weeds in and
      around Lake Sakakawea. The project was associated with three contracts with a
      total value of $318,000 that were funded with Recovery Act Operation and
      Maintenance appropriations.

   •	 Instrumentation Maintenance and Rehabilitation. The purpose of the project
      was to secure services to repair, replace, and install dam safety instrumentation at
      the Garrison Dam. The project was associated with one contract valued at
      $389,000 that was funded with Recovery Act Operation and Maintenance
      appropriations. See Figure 1 for an aerial view of the Garrison Dam.

   •	 Installation of New Black Start Emergency Diesel Generator. The purpose of
      the project was to secure services to install a new diesel generator at the Garrison
      Dam Hydroelectric Power Plant. The project was associated with one contract
      valued at $372,000 that was funded with Recovery Act Operation and
      Maintenance appropriations.

   •	 Fabrication of Three Transformers. The purpose of the project was to secure
      services to fabricate three transformers for the Garrison Hydroelectric Power
      Plant. The project was associated with one contract valued at $8.95 million that

                                                4

       was funded with Recovery Act Construction appropriations. See Figure 2 for a
       view of the three transformers.

   •	 Installation of Transformers. The purpose of the project was to secure services
      to redesign, build, and install transformers at the Garrison Dam Hydroelectric
      Power Plant. The project was associated with two contracts with a total value of
      $798,000 that were funded with Recovery Act Construction appropriations.


                           Figure 2. Garrison Dam Power Plant




          Source: U.S. Army Corps of Engineers, Omaha District

Internal Controls Needed Improvement for the Initial
Execution of the Recovery Act
We determined that internal control weaknesses existed as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” July 29,
2010. USACE Omaha lacked controls to ensure that all required FAR clauses were
included in all Recovery Act contract actions and that the word “Recovery” was in the
title field for all presolicitations to identify which projects were funded by the Recovery
Act. We will provide a copy of the final report to the senior official responsible for
internal controls at the U.S. Army Corps of Engineers.




                                                5

Finding. USACE Omaha Contracting Officials
Generally Met Recovery Act Requirements
USACE Omaha contracting officials (contracting officials) generally met Recovery Act
requirements for the five projects we reviewed. They properly planned and funded the
projects and had procedures in place to ensure that contractors properly tracked and
reported required information to achieve the goals of the Recovery Act. However,
contracting officials did not fully meet initial project execution requirements of the
Recovery Act. Specifically, they did not:

    •	 include a required FAR clause in one of the Recovery Act contract actions
       because personnel inaccurately completed the Contracting Management Control
       Checklist; 1 and
    •	 include the word “Recovery” in the title field for three of eight presolicitations to
       identify which projects were funded by the Recovery Act because they were not
       aware of the FAR requirement.

As a result, contractors might not have been informed of or required to adhere to the
Recovery Act requirements, and potential bidders might not have been aware of the
proposed projects funded by the Recovery Act.

Contracting Officials Complied With Many of the
Recovery Act Requirements
Contracting officials complied with many of the Recovery Act requirements for the five
projects selected for review. Specifically, USACE Omaha properly planned and funded
the projects and had procedures in place to ensure that contractors properly tracked and
reported required information.

    •	 Proper Planning. USACE Omaha personnel properly planned the five projects
       we reviewed in accordance with OMB guidance. OMB M-09-15 states that
       departments and agencies should support projects that have a demonstrated or
       potential ability to achieve long-term public benefits by investing in an improved
       quality of life, environmental protection, and infrastructure that will provide long-
       term economic benefits. The OMB M-09-15 also states that agencies should seek
       to provide equal opportunities for small business enterprises in awarding contracts
       under the Recovery Act, to the extent allowed by law.

        USACE Omaha personnel properly developed or obtained cost estimates,
        determined qualified sources and competition requirements, and completed
        market research to allow for small-business participation in accordance with


1
  This is a mandatory internal checklist (Fragmentary Order No. 22) that USACE contracting officers are
required to complete. The answers indicate whether they followed the Recovery Act guidance.
                                                    6

   OMB M-09-15. Specifically, personnel developed requirements for the five
   projects, obtained cost estimates, and appropriately considered small and
   disadvantaged businesses. In 2003, personnel performed market research on
   resources available to prevent the continued spread of invasive species and
   reclaim unusable acreage so that the Garrison Dam could operate as intended. In
   addition, a USACE evaluation report shows that personnel began planning for the
   rehabilitation of the Garrison Dam in 1995. The report concluded that existing
   turbines on all units needed to be replaced.

   As a result of personnel’s planning efforts, eight contracts were awarded for the
   five projects. Of the eight contracts, six were awarded to small or disadvantaged
   businesses in accordance with OMB M-0915.

•	 Proper Funding. USACE Omaha personnel properly distributed and used
   Recovery Act funds for the five projects in accordance with Public Law 111-5
   and OMB M-09-15. For the projects selected, Recovery Act funding
   authorization documents confirmed that initial funds were transferred from
   USACE Headquarters to USACE Omaha within 3 months of the Recovery Act’s
   effective date and then properly distributed to the five projects. Personnel also
   appropriately used the funds for environmental protection and other infrastructure
   that will provide long-term economic benefits. For example, the intent of the
   noxious weeds project is to conserve and protect the natural and cultural resources
   at USACE Omaha flood control projects and meet the needs of present and future
   generations by providing healthy and sustainable lakes. In addition, the
   installation of the new black diesel generator will provide reliable hydroelectric
   power services at the lowest cost possible.

   USACE Omaha personnel appropriately designated and distributed Recovery Act
   funds for the applicable products and services in their accounting system as well
   as in their contract solicitations and awards. OMB M-09-15, section 4.3, states
   that agencies must not co-mingle Recovery Act funds with other funds. In
   addition, agencies must establish an internal fund code within their financial
   systems and separately track apportionments, allotments, obligations, and gross
   outlays to Recovery Act funds. On the basis of our review, we concluded that the
   funding amounts received for the five projects matched the authorized funding
   and that each funded amount had a Recovery Act designation. In addition, all
   funding documents used were labeled with the Recovery Act Treasury accounting
   symbols to aid in their identification.

•	 Proper Tracking and Reporting. USACE Omaha had procedures in place to
   ensure that contractors properly tracked and reported required information in
   accordance with OMB M-09-15. Specifically, USACE Omaha contracting
   officers monitored contractors’ input to ensure that required information for the
   Federal Reporting Web site http://www.federalreporting.gov was posted in
   accordance with OMB M-09-15. OMB M-09-15 requires contractors to post


                                        7

       information on http://www.federalreporting.gov regarding the funding agency,
       awarding agency, and project information for Recovery Act projects.

       We reviewed the most recent quarterly reports posted by contractors for the eight
       contracting actions associated with the five projects to be completed at the
       Garrison Dam, Lake Sakakawea, North Dakota. We determined that the
       contractors properly reported the funding agency, awarding agency, project status,
       amount of Recovery Act funds received or invoiced, and number of jobs created
       for the five projects we reviewed.

Contracting Officials Did Not Fully Meet Initial Project
Execution Requirements of the Recovery Act
Contracting officials did not fully meet initial project execution requirements of the
Recovery Act. Specifically, they did not include a required FAR clause in one Recovery
Act contract action, and did not include the word “Recovery” in the title field for three of
eight presolicitations to identify which projects were funded by the Recovery Act.

                              Required FAR Clause Omitted. Contracting officials did
    …contractors might        not include required FAR clause 52.212-5, “Contract Terms
       not have been          and Conditions Required to Implement Statutes or Executive
       informed of or         Orders – Commercial Items,” in contract W9127N-08-C­
   required to adhere to      0011. This occurred because USACE Omaha personnel
     this Recovery Act        inaccurately completed the Contracting Management Control
        requirement.          Checklist. Specifically, personnel did not complete line 2d of
                              the checklist, indicating FAR clause 52.212-5 was included
in the contract. As a result, contractors might not have been informed of or required to
adhere to this Recovery Act requirement. USACE Omaha personnel should modify the
contract to include the FAR clause. Appendix C shows the Contracting Management
Control Checklist obtained from USACE Omaha personnel.

Presolicitations Not Properly Identified as Recovery Act. Contracting officials did not
include the word “Recovery” in the title for three of eight presolicitations, which would
identify the projects that were funded by the Recovery Act. This occurred because they
were not aware of this FAR requirement. FAR 5.704, “Publicizing-preaward,” states
contracting officers are to identify proposed contract actions funded in whole or in part
by the Recovery Act. As a result, potential bidders might not have been aware that the
proposed projects were funded by the Recovery Act. USACE Omaha personnel should
modify the presolicitations to include the word “Recovery” in future presolicitations for
projects funded by the Recovery Act.




                                             8

Recommendations, Management Comments, and
Our Response
We recommend that the Commander, U.S. Army Corps of Engineers, Omaha
District, ensure that contracting personnel:

1. 	Modify contract W9127N-08-C-0011 to include Federal Acquisition Regulation
 clause 52.212-5, “Contract Terms and Conditions Required to Implement Statutes
or Executive Orders – Commercial Items.”

USACE Omaha District Comments
The Commander, USACE Omaha, agreed with the recommendation and stated that a
contract modification will be issued to incorporate FAR Clause 52.212-5, “Contract
Terms and Conditions Required to Implement Statutes or Executive Orders --
Commercial Items,” into the contract.

2. Include the word “Recovery” in the title for all future presolicitations for
projects funded by the Recovery Act in accordance with Federal Acquisition
Regulation 5.704.

USACE Omaha District Comments
The Commander, USACE Omaha, agreed with the recommendation and stated that any
future presolicitations notices funded by the Recovery Act will contain the word
“Recovery.”

Our Response
The Commander, USACE Omaha, comments are responsive, and no additional
comments are required.




                                           9

Appendix A. Scope and Methodology
of Audit
We conducted this audit from January 2010 to February 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objective.

To accomplish our objective, we audited the planning, funding, initial project execution,
and contractor tracking and reporting of Recovery Act projects to determine whether
USACE Omaha complied with Recovery Act requirements, OMB’s guidance, the FAR,
and DoD implementing guidance. Specifically, we determined whether USACE Omaha:

   •	 adequately planned selected projects to ensure the appropriate use of Recovery
      Act funds (Planning);
   •	 awarded and distributed funds in a prompt, fair, and reasonable manner

      (Funding);

   •	 adequately performed initial execution of the projects selected to ensure that
      contracts contained required Recovery Act FAR clauses and that presolicitations
      were posted to the proper Web sites (initial Project Execution); and
   •	 had procedures in place to ensure that contractors tracked and reported contracts
   •	 in accordance with OMB guidance (Tracking and Reporting).

We met with USACE Omaha personnel to evaluate the type of work performed under the
Recovery Act and how this work was funded. We reviewed funding documents that
interface with the Corps of Engineers Financial Management System to trace back to the
initial Recovery Act funding. Further, we reviewed such documentation as solicitations,
Federal procurement Web sites, bid submittals, and contracts to determine whether
USACE Omaha personnel were implementing the Recovery Act and OMB requirements.

Use of Computer-Processed Data
We used computer-processed data from Web sites such as FBO, FPDS, and
Recovery.org. We validated data from these computer systems by comparing the data to
hard-copy documentation related to the projects selected for review. Specifically, we
determined whether contractors reported data in these systems as required by the
contracts we reviewed. We also interviewed program officials responsible for reporting
on Recovery Act contract actions and for managing Recovery Act funding. From these
procedures, we concluded that the data we obtained from these systems were sufficiently
reliable for our purposes.




                                           10 

Use of Technical Assistance
The Quantitative Methods and Analysis Division (QMAD) of the DoD Office of
Inspector General selected most Recovery Act projects and locations using a modified
Delphi technique, which allowed us to quantify the risk based on expert auditor judgment
and other quantitatively developed risk indicators. QMAD used additional predictive
analytic techniques for public works Recovery Act projects funded directly through
USACE. QMAD factored in workload volume, proposed costs, geographic districts, and
USACE districts and regions in evaluating the relative risk of problems with oversight
and completion.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of public works projects managed by USACE.

Garrison Dam, Lake Sakakawea. We initially selected 16 USACE Omaha projects
with planned funding of over $38.2 million at Garrison Dam, Lake Sakakawea, ND. We
then nonstatistically selected five of those projects with planned funding of over
$20.3 million for review. From those projects, we selected and reviewed four contracts
and four task orders on existing contracts that were valued at over $10.8 million. All the
contracts were awarded or administered by USACE Omaha contract officials.

Prior Coverage of Recovery Act Projects
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            11 

Appendix B. Recovery Act Criteria
and Guidance
The following list includes the primary Recovery Act criteria and guidance:

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30, 2009,
      and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on
      Use of Funds Pursuant to the American Recovery and Reinvestment Act of
      2009,” June 22, 20092

   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications with
      Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009




                                             12 

    •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery and
       Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting of Job
       Estimates,” December 18, 20092

    •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery and
       Reinvestment Act,” March 22, 20102

    •	 White House Memorandum, “Combating Noncompliance with Recovery Act
       Reporting Requirements,” April 6, 20102

    •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102



Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     13 

Appendix C. Contracting Management
Control Checklist
                                     ARRA CHECKLIST
Directions: All District Contracting Offices will perform this checklist. All answers that indicate that
ARRA guidance was followed require additional information in the comment field. Comments
should state why an action was or was not taken and if necessary provide the corrective action
taken to resolve the deficiency for either the current contract or future contracts.

CONTRACT NUMBER:
________________________________________________________________

CONTRACT TITLE (Include City, State):
___________________________________________________

Contract Action Reviewed: ______________________________

Date of Performance of ARRA Check: _______________of ____ Quarter of FY_______ 

Printed Name of USACE Individual Performing Quarterly Check: ________________________


             ARRA PRE-AWARD CHECKLIST                                     Yes           No            N/A
1. Does the solicitation or award indicate which products or
   services are funded under the Recovery Act?
2. Does the solicitation/award include the required FAR clauses
   relating to:
        a. Whistleblower Protection (FAR clause 52.203-15)?
        b. Contracting Reporting Requirements (FAR clause
            52.204-11)?
        c. Special Buy America Act requirements FAR clauses
            (52.225-21, 52.225-22, 52.225-23, or 52.225-24?
        d. Expanded GAO/OIG access to contractor records FAR
            clauses 52.212-4, 52.212-5, 52.214-26, 52.215-2?
        e. Publicizing Contract Actions (FAR 5.704-2 – 5.705)?
3. ARRA contract actions must contain a separate Contract Line
   Item Number (CLIN). Do the ARRA contract actions contain a
   separate Contract Line Item Number (CLIN) in the contract,
   delivery order, or modification?
4. Were all authorized small business contracting programs
   considered in order to provide small business with maximum
   opportunities to participate as prime and subcontractors?
5. Does the solicitation/award comply with the environmental
   requirements of FAR PART 23?
6. Was a pre-solicitation announcement posted on ASFI/FBO
   (required for both contracts and orders issued under task or
   delivery order contracts (See FAR Subpart 5.7(a)(2))?
7. Is the ASFI/FBO pre-solicitation announcement appropriately
   identified by including the word “RECOVERY” as the first word
   in the Title field (if notices are submitted electronically via
   FTP/e-mail)?
8. By selecting “yes” for the field “Is this a Recovery and
   Reinvestment Act action” on the Notice Detail for ( in Step 2)

                                                  14 

             ARRA PRE-AWARD CHECKLIST                                           Yes   No         N/A
    located below the NAICS code field?
9. If the pre-solicitation announcement was for an order under a
    task or delivery order contract, did it include the following
    statement in the Description filed in ASFI/FBO preceding the
    actual description?      THIS NOTICE IS PROVIDED FOR
    INFORMATIONAL PURPOSE ONLY THIS OPPORTUNITY IS
    AVAIALBE         ONLY      TO     CONTRACTOR         UNDER
    (CONTRACTING OFFICER INSERT PROGRAM/CONTRACT
    NAME) ______________________________________
10. Is the description of the supplies and services (including
    construction) in the ASFI/FBO notice clear and unambiguous
    to the public?
11. Does the Grants or the Cooperative Agreement spell out the
    assignment of agency roles and responsibilities to fulfill the
    unique requirements of the Recovery Act.?
12. Were competitive grants opportunity announced (i.e.,
    synopses) on Grants.gov?
Reminder:
•   Any Recovery Act funded action that is not both competitive and fixed
    price must be supported by a “rationale” posted on ASFI/FBO for
    other than a competitive and/or fixed price approach. See Award
    Checklist (over) and FAR 5.705(b) for more details.
•   This requirement applies regardless of dollar value or whether the
    action is funded in whole or in or in part by the Recovery Act. It also
    applies to contracts, orders, or modifications to an existing contract or
    order.
•   This requirement does not relieve you of your obligations to document
    the file and obtain approvals of other than competitive or fixed price
    actions required elsewhere in the FAR or by your agency.


                             ARRA AWARD CHECKLIST                                          Yes   No    N/A
1. If an award was not competitive, was it documented in the contract file as required
    by the FAR and Agency policy
2. Was the contractor determined to be responsible and was verification conducted to
    ensure the contractor was not listed in the Excluded Parties List System at
    www.epls.gov?
3. Was the award announced on ASFI/FBO?
4. Is the ASFI/FBO award announcement appropriately identified by:
            a. Including the word “Recovery” as the first word in the Title field (if
            notices and submitted electronically via ftp/e-mail)?
            b. Selecting “yes” for the field “Is this a Recovery and Reinvestment Act
            action” on the Notice Detail form (Step 2) located below the NAICS Code
            filed?
5. Was a summary of the action, including a clear, plain language description of the
    required products or services (including construction), posted on ASFI/FBO?
6. Regardless of Dollar Value, if the contract action, including all modifications and
    order issued under task or delivery order contracts, is not both fixed prices and
    competitive, does the description on the ASFI/FBO award notice announcement
    include a rational for using other than a fixed price and/or competitive approach?
7. Was the action reported in FPDS-NG?
8. Did the FPDS-NG entry include the Treasury Accounting Symbol (TAS) in the
    Description of Requirement filed in the proper format?
9. Was the contract action approved and release in SPS?
10. Was the TAS confirmed with Resource Management in reference to the program

                                                      15 

                            ARRA AWARD CHECKLIST                                                   Yes   No   N/A
    description (e.g., HAP, FSRM, MR&T, R&D, IIS etc.)?
11. Have all field contract actions been entered in SPS, approved and released in
    FPDS-NG (if applicable)?
Reminder:
•   All transactions under the micro-purchase threshold both purchase and paid for using the
    government –wide purchase card, all DoD contract action using Recover Act funds are
    required to be reported individually to FPDS-NG regardless of dollar value. This include any
    order place using electronic catalog tools (e.g. GSA Advantage!, DoD EMALL, AFWAY)
    using the GPC as a methods for payment. Excluding classified procurements.
•   "Micro-purchase threshold" is set at $3,000, except for:
•   For acquisitions of construction subject to the Davis-Bacon Act, then it is set at $2,000.
•   For acquisitions of services subject to the Service Contract Act, then set to $2,500.

NOTES (provide item number and comments for any item answered No):

P2 Activity Code:
Recovery Project No's:
Contract No.:
Delivery Order No.:
Program Name:
Brief Description:
Place of Performance:
Award Date:
Contractor:
Award Amount:
Contract Type (A/E, Services, Construction, etc):
Competitive (Yes/No):
Set-Aside (Small, 8a, etc.):
Completion Date:

ADDITIONAL NOTES:




Note: ARRA = American Recovery and Reinvestment Act of 2009.




                                                    16 

U.S. Army Corps of Engineers, Omaha District
Management Comments




                   Click to add JPEG file




                                  17
